No. 20A67

IN THE

Supreme Court of the United States
__________
JOHN H. MERRILL, IN HIS OFFICIAL CAPACITY AS SECRETARY OF STATE FOR THE
STATE OF ALABAMA, AND THE STATE OF ALABAMA,
Applicants,
v.
PEOPLE FIRST OF ALABAMA, ET AL.,
Respondents.
______________________

RESPONSE IN OPPOSITION TO EMERGENCY APPLICATION FOR STAY
___________
To the Honorable Clarence Thomas,
Associate Justice of the Supreme Court of the United States and
Circuit Justice for the Eleventh Circuit
___________
Sherrilyn Ifill
Director-Counsel
Janai Nelson
Samuel Spital
Natasha Merle
Counsel of Record
Deuel Ross
Liliana Zaragoza
NAACP LEGAL DEFENSE &
EDUCATIONAL FUND, INC.
40 Rector Street, 5th Floor
New York, NY 10006
P: (212) 965-2200
nmerle@naacpldf.org

Mahogane D. Reed
NAACP LEGAL DEFENSE &
EDUCATIONAL FUND, INC.
700 14th Street N.W.Ste.600
Washington, DC 20005
P: (202) 682-1300
Davin M. Rosborough
T. Alora Thomas-Lundborg
Dale E. Ho
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
125 Broad St.
New York, NY 10004
P: (212) 549-2500
Additional Counsel on Next Page

Katrina Robson
Stephen D. Brody
O’MELVENY & MYERS LLP
1625 Eye Street NW, Suite 1000
Washington, DC 20006
P: (202) 383-5300
William Van Der Pol
Jenny Ryan
Maia Fleischman
ALABAMA DISABILITIES
ADVOCACY PROGRAM
Box 870395
Tuscaloosa, AL 35487
P: (205)348-4928

Sarah Brannon
David D. Cole
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
915 15th Street, NW
Washington, DC 20005-2313
P: (202) 675-2337
Randall C. Marshall
ACLU FOUNDATION
OF ALABAMA, INC.
P.O. Box 6179
Montgomery, AL 36106-0179
P: (334) 420-1741

Caren E. Short
Nancy G. Abudu
SOUTHERN POVERTY
LAW CENTER
P.O. Box 1287
Decatur, GA 30031
P: (404) 521-6700

Counsel for Respondents

TABLE OF CONTENTS
PAGE
TRIAL TRANSCRIPT EXCERPTS (Sept. 11, 2020)
Merrill Testimony ............................................................................. Supp. App. 1
TRIAL TRANSCRIPT EXCERPTS (Sept. 15, 2020)
Davis Testimony............................................................................. Supp. App. 16
Helms Testimony ........................................................................... Supp. App. 27

iii

TRIAL TRANSCRIPT EXCERPTS
September 11, 2020

This uncertified transcript is not the official, certified version of the proceedings.
This uncertified transcript DOES CONTAIN ERRORS which WILL change the transcript's accuracy/meaning.
This uncertified transcript may not be filed with the court or cited from.

CASE NO. 2:20-cv-00619-AKK
PEOPLE FIRST OF ALABAMA, et al.,
v.
JOHN MERRILL, et al.,
THE COURT: Any issues that anyone wants me to address
this morning before we begin?
MR. DAVIS: I don't think so. From the State Defendants'
perspective, we'd appreciate the opportunity to speak with
Plaintiffs' Exhibit's counsel maybe this evening about how long
you expect to go on Monday so we'll know how much witnesses
we need to have up and prepared to testify on Monday.
THE COURT: That makes sense. Okay, folks. If you don't
need me, we will -- looks like all systems are go. We will start
officially in eight minutes. Thanks, everyone for being here this
morning, obviously.
THE COURT: Are Plaintiffs ready to proceed?
MS. MERLE: Yes, Your Honor.
THE COURT: Who is your first witness?
MS. MERLE: Your Honor, Plaintiffs call Secretary of State for
the State of Alabama and request permission to treat him as an
adverse witness party under the Rule 611.
THE COURT: Secretary Merrill, you are on, sir. Good
morning.
THE WITNESS: Good morning, Judge.
PAGE 1

OF UNCERTIFIED TRANSCRIPT

Supp. App. 1

This uncertified transcript is not the official, certified version of the proceedings.
This uncertified transcript DOES CONTAIN ERRORS which WILL change the transcript's accuracy/meaning.
This uncertified transcript may not be filed with the court or cited from.

officer.
Q.

And that -- the safety it provides -- that face masks provide,

that would extend to polling precincts as well?
A.

Counselor, it's my understanding that extends to all

environments in which people are present.
Q.

And because of this, your office has actually encouraged

poll workers to wear face masks, correct?
A.

Not only have since we encouraged it, we have provided

resources for them to be able to do so.
Q.

But poll workers are not required to wear face masks in

polling precincts, correct?
A.

Counselor, no one in the State of Alabama is required to

wear a face mask anywhere. There is no statutory authority that
defines that.
Q.

Are poll workers required to wear face masks in polling

precincts, yes or no, Secretary?
A.

No individual is required to wear a face mask anywhere.

Q.

I'm asking about poll workers specifically --

A.

Yes, ma'am. We encourage poll workers to wear face masks

and other protective gear.
Q.

But they are not required to?

A.

Nobody in the State of Alabama is required to.

Q.

You've received -- since the July 14th election, you received

a complaint about unsafe polling precincts including poll workers
not wearing masks during the election, correct?
PAGE 26

OF UNCERTIFIED TRANSCRIPT

Supp. App. 2

This uncertified transcript is not the official, certified version of the proceedings.
This uncertified transcript DOES CONTAIN ERRORS which WILL change the transcript's accuracy/meaning.
This uncertified transcript may not be filed with the court or cited from.

Q.

This is PX 150. And you see it's from a Mobile County

official sent to a number of individuals including yourself,
Secretary?
A.

I see that.

Q.

And then the last line of the first paragraph, it states, "in

Mobile County, many of the polling locations that create the
biggest issues with the CDC guidelines serve predominantly
minority communities;" is that correct?
A.

That's what Mark Erwin said in this email.

Q.

Did you respond to Mark Erwin concerning this?

A.

I did not respond to Mark Erwin myself related to this. Any

communication related to this issue would have come from my
assistant but probably could have come directly from my legal
counsel, Hugh Evans.
Q.

And you don't know either way whether Hugh Evans

responded?
A.

Hugh responds to every inquiry that comes to our office.

How he responded to it, I can't say whether it would be through
an email, other written communication, or verbal communication
either in person or through a telephonic device.
MS. MERLE: Eric you can take that down. Thank you.
Q.

Secretary, I want to ask you a couple questions about

electronic poll books?
A.

Yes.

Q.

Currently, there's 35 counties in Alabama that have

PAGE 35

OF UNCERTIFIED TRANSCRIPT

Supp. App. 3

This uncertified transcript is not the official, certified version of the proceedings.
This uncertified transcript DOES CONTAIN ERRORS which WILL change the transcript's accuracy/meaning.
This uncertified transcript may not be filed with the court or cited from.

electronic poll books?
A.

Actually, there's more than 60 now.

Q.

Is your office providing for every county to have a poll book

before the November election?
A.

We have offered that opportunity to all 67 counties. 35 --

counselor, 35 counties already had them. They had purchased
those over the past four years going back to 2016 when we
introduced them. And we made them available to the other
counties in the state hopefully to have them fully implemented
by November the 3rd. But that's not going to be the case because
all of them have not agreed to accept that offer that we've made
where we will pay for the item of their choice to be delivered to
them and implemented for the administration of the election.
Q.

Do you know which counties did not accept the poll books?

A.

I don't have that list with me today.

Q.

But did you testify that over 60 counties have the poll book

currently?
A.

That is correct. The last number that I had from our office

was that 60 had committed to use the electronic poll book on
Election Day, November the 3rd. And the other seven that have
not, have made that decision on their own. They have constantly
said we do not wish to accept this at this time.
Q.

Secretary, I want to switch to curbside voting. And if I refer

to curbside voting as allowing a voter to vote at their assigned
precinct but within their car, whether they call ahead or the poll
PAGE 36

OF UNCERTIFIED TRANSCRIPT

Supp. App. 4

This uncertified transcript is not the official, certified version of the proceedings.
This uncertified transcript DOES CONTAIN ERRORS which WILL change the transcript's accuracy/meaning.
This uncertified transcript may not be filed with the court or cited from.

worker is waiting outside but they are allowed to vote in their car,
do you think that that is what I am referring to when I say
curbside voting?
A.

I do.

Q.

Okay. And you are aware of instances of curbside voting

being provided by county officials in Alabama, correct?
A.

I have been made aware of that in the past.

Q.

And one instance was in Perry County?

A.

One of those instances that was reported to me was in Perry

County.
Q.

One instance was in Hale County; is that correct?

A.

That is correct.

Q.

And one instance was in Chilton County, correct?

A.

I am not aware of that.

Q.

So you are aware of Perry and Hale County instances?

A.

That is correct.

Q.

So focusing first on Perry County, that was in 2018, correct?

A.

That was when it was reported to me.

Q.

And in that case, two employees in your office, Ed Packard

and Hugh Evans, they were the individuals actually on site when
they learned of the curbside voting happening in Perry County?
A.

That is correct.

Q.

Okay. And those two employees, Mr. Packard and Mr. Evans,

they informed the poll workers that curbside voting was not
allowed in Alabama and they needed to cease and desist, correct?
PAGE 37

OF UNCERTIFIED TRANSCRIPT

Supp. App. 5

This uncertified transcript is not the official, certified version of the proceedings.
This uncertified transcript DOES CONTAIN ERRORS which WILL change the transcript's accuracy/meaning.
This uncertified transcript may not be filed with the court or cited from.

A.

That is correct. That's what was reported to me.

Q.

And you think that Mr. Packard and Mr. Evans, you think

that their actions in stopping curbside voting in Perry, you think
that was -- you agree with the steps they took to stop that from
happening?
A.

That is correct. It's their charge to make sure that the law in

Alabama is followed. That is not state law in Alabama to permit
curbside voting.
Q.

And you agreed with their decision to stop curbside voting

even though you don't know what disability the voter had?
A.

That is correct.

Q.

And the disability that the voter had, that was not relevant

to whether curbside voting should be allowed or not?
A.

That is correct. Because we only care about abiding by the

law.
Q.

And you don't know whether the polling precinct where this

was occurring at, you don't know whether it was accessible to
individuals with disabilities, correct?
MR. DAVIS: I wish to lodge an objection on the record. I do
not believe it has been established that the voter in question had
a disability. And, now, I apologize, Ms. Merle. I'm not sure I
understood the question that you were trying to ask after that.
THE COURT: There's nothing in the record that the voter
had a disability. But the question is fair. Then the next question,
I guess will lodge a similar objection. The question was if that
PAGE 38

OF UNCERTIFIED TRANSCRIPT

Supp. App. 6

This uncertified transcript is not the official, certified version of the proceedings.
This uncertified transcript DOES CONTAIN ERRORS which WILL change the transcript's accuracy/meaning.
This uncertified transcript may not be filed with the court or cited from.

particular polling place was accessible to persons with
disabilities. Same objection, Mr. Davis?
MR. DAVIS: If the question is just whether Secretary Merrill
is aware of the accessibility of the polling place, I do not have an
objection to him responding to what personal knowledge he has
about that.
THE COURT: Okay. Mr. Secretary, you may answer the
question, sir.
THE WITNESS: Judge, I have no knowledge of that.
Q.

(BY MS. MERLE:) In this instances in Perry County, you don't

know if somebody else had signed the poll list for the voter,
correct?
A.

I do not.

Q.

And you don't know whether ballot secrecy was

compromised during the curbside voting?
A.

I do not.

Q.

You don't know whether the curbside voting that was going

on in Perry County, whether it was causing any traffic flow issues
at that precinct?
A.

I do not.

Q.

You did not hear complaints from the election officials that

were providing curbside voting that the accommodation was not
feasible?
A.

I did not.

Q.

Do you know the general racial demographics of Perry

PAGE 39

OF UNCERTIFIED TRANSCRIPT

Supp. App. 7

This uncertified transcript is not the official, certified version of the proceedings.
This uncertified transcript DOES CONTAIN ERRORS which WILL change the transcript's accuracy/meaning.
This uncertified transcript may not be filed with the court or cited from.

County?
A.

I do. I know that Perry county is a predominantly

minority-majority county.
Q.

The other instance of curbside voting was in Hale County in

2016?
A.

That is correct.

Q.

And in this instance, the constituent actually called you

directly with the instance of curbside voting, correct?
A.

That is correct.

Q.

And when the constituent called you, they informed you

that voters were voting from their car. That's what the -- yes.
That voters were from voting from their car?
A.

That is correct.

Q.

And you called Hale County probate judge, Judge Crawford;

is that correct?
A.

That is correct.

Q.

And you told Judge Crawford to cease and desist curbside

voting?
A.

Well, I asked Judge Crawford if he was familiar with the

incident that had been introduced to me, and he said he was.
And then I asked him under what authority granted to him in the
Alabama code or the constitution was he able to offer that as a
service to the voters. And he responded that it was a
convenience for the voter. And then I asked him again to what
authority granted to him in the Alabama code or the constitution
PAGE 40

OF UNCERTIFIED TRANSCRIPT

Supp. App. 8

This uncertified transcript is not the official, certified version of the proceedings.
This uncertified transcript DOES CONTAIN ERRORS which WILL change the transcript's accuracy/meaning.
This uncertified transcript may not be filed with the court or cited from.

was he allowed to do that. And he could not cite a provision in
the code or the constitution where he was able to do that.
And then I asked him to immediately cease and desist, and
he said that he would. Because I also told him if I needed to call
Kenneth -- that's Sheriff Kenneth Ellis who is the sheriff in Hale
County -- to offer assistance for him, I would be happy to do so,
and he told me that that would not be necessary.
Q.

So when you were having this conversation with Judge

Crawford, did you ask whether the voters that were being
provided the service, did you ask whether they had disabilities?
A.

I did not.

Q.

That wasn't relevant to your consideration about whether

curbside should be -A.

No, I did not know, and I did not care because it's against

the law. There is no provision in the code or the constitution that
provides for curbside voting. And, you know, it's interesting
because I've had people that have asked me before about whether
or not it matters related to the person's ability or disability. And
the reason that's important to me personally is because my father
was an amputee and spent the last part of his life in a wheelchair,
which I took care of him whenever I could. My mother did for
several years. But the reason I introduce that to you is because
it's not important if it's not allowed by law. It doesn't matter
what the status of the individual is. Period. Only thing that
matters is the law.
PAGE 41

OF UNCERTIFIED TRANSCRIPT

Supp. App. 9

This uncertified transcript is not the official, certified version of the proceedings.
This uncertified transcript DOES CONTAIN ERRORS which WILL change the transcript's accuracy/meaning.
This uncertified transcript may not be filed with the court or cited from.

Q.

And you don't know if the polling precinct that you were

talking to Judge Crawford about -- you don't know whether the
polling precinct was accessible to -A.

I do not.

Q.

And you had no indication that someone other than the

voters had signed the poll list?
A.

I do not know.

Q.

And you had no information about ballot secrecy being

compromised?
A.

I have not.

Q.

And you didn't know whether there was traffic flow issues

from curbside being provided?
A.

I do not. I just know it was against the law.
THE COURT: Karen, can we figure out who else needs to be

muted, please. Secretary Merrill and to the lawyers, please accept
our apologies for that outburst. We will try to see if we can
pinpoint the source and mute that microphone.
Ms. Merle, you may continue.
Q.

(BY MS. MERLE:) As far as you are aware, Secretary, Judge

Crawford has not provided curbside voting again after you called
him and -- yes. He hasn't provided curbside voting again as far as
you are aware?
A.

Not to my knowledge.

Q.

And do you know the racial demographics of Hale County?

A.

I do. Hale County is a minority-majority county. It is a

PAGE 42

OF UNCERTIFIED TRANSCRIPT

Supp. App. 10

This uncertified transcript is not the official, certified version of the proceedings.
This uncertified transcript DOES CONTAIN ERRORS which WILL change the transcript's accuracy/meaning.
This uncertified transcript may not be filed with the court or cited from.

neighbor to me in Tuscaloosa County. And both Judge Crawford
and Sheriff Ellis are both African-Americans. And you didn't ask
this but so is Judge Anderson in Perry.
THE COURT: Folks, I don't know if we're going to be able to
solve this mystery. Everyone's microphones are off except for
Ms. Merle and the Secretary's and mine. I know federal Zoom is a
bit more secure than public Zoom. So, hopefully, this is not a
sign of some hack. But please continue, and I'll keep my fringes
crossed.
MS. MERLE: Yes, Your Honor.
Q.

And, Secretary, you've testified -- let me ask it this way.

Curbside voting is not discussed in the Alabama code, correct?
A.

That's correct.

Q.

Is it your understanding as the chief election official that

voters are allowed to receive assistance from poll workers?
A.

Yes. That is allowable.
MS. MERLE: Your Honor, at this time, I'd pass the witness.
THE COURT: Okay. Thank you. For the Defendants, are you

going to examine Secretary Merrill now or defer for your case?
Mr. Davis?
MR. DAVIS: Your Honor, for the sake of efficiency, we would
prefer to go ahead and do that at this time.
THE COURT: You may.
MR. DAVIS: Thank you. And, Your Honor, before I begin,
does the Court have a preference for when we take our morning
PAGE 43

OF UNCERTIFIED TRANSCRIPT

Supp. App. 11

This uncertified transcript is not the official, certified version of the proceedings.
This uncertified transcript DOES CONTAIN ERRORS which WILL change the transcript's accuracy/meaning.
This uncertified transcript may not be filed with the court or cited from.

Q.

Do they have to make several trips, or can they complete the

process in one visit to the absentee election manager?
A.

Yes, sir, they can complete the process in one visit.

Actually, counselor, in most instances when I vote, I actually vote
absentee in person. And I will do what you've just described
which is what I did for the March 3rd primary. I actually returned
my absentee ballot by mail for the July 14th runoff and returned
it in March when it -- right after it was mailed to me. And I will
most likely return the November 3rd general election ballot
through the mail as well.
Q.

Would it be permissible for the absentee election manager to

hold an event outside of his or her office to allow people to come
in and complete the absentee voting process?
A.

Oh, absolutely. And it is something we encouraged. As a

matter of fact, we have communication with the circuit clerks and
the absentee election managers to make sure they know that this
is something they should consider in their county. Most recently,
counselor, last Thursday I was making a presentation to 100
black women in the State of Alabama. They have a chapter in
Huntsville, and they'd ask me to be their speaker. And one of the
individuals that was on the call -- it was a Zoom call similar to
what we're doing today -- said to me, why can't we get people to
come to Alabama A&M and actually have an in-person voting day
for the absentee process. And -MS. MERLE: Go object to the hearsay in Secretary Merrill's
PAGE 48

OF UNCERTIFIED TRANSCRIPT

Supp. App. 12

This uncertified transcript is not the official, certified version of the proceedings.
This uncertified transcript DOES CONTAIN ERRORS which WILL change the transcript's accuracy/meaning.
This uncertified transcript may not be filed with the court or cited from.

testimony.
THE COURT: Overruled.
THE WITNESS: Judge, I thought I was the one that
experienced it. So it wasn't hearsay. It was me talking.
THE COURT: Overruled, sir. You may answer.
THE WITNESS: Okay. Thank you, Judge.
So, nevertheless, I told them, I said, look, not only is this
something that can happen, it's something you should consider
doing. I should you need to contact Debra Keizer, who is the
circuit clerk and absentee election manager in Madison County,
and tell her you'd like her to pick a day that's convenient for her
on her schedule to come to Alabama A&M, and y'all host a day. I
said, furthermore, you really need to invite the students at the
University of Alabama Huntsville and the students from Oakwood
and the students from Calhoun to come to your campus and have
a bulldog party day and have hot dogs and Coca-Colas and just
have a voting day all day for people that want to come and
participate there. And they said, we could do that? I said, of
course.
I said, absentee election manager's office is where the
absentee election manager is. We see absentee election managers
going to nursing homes, assisted living facilities, and other
locations like that. But I believe we should think outside the box
in all the things that we do as long as they're permissible by law.
And this is. And that's why I suggested it to them. I know
PAGE 49

OF UNCERTIFIED TRANSCRIPT

Supp. App. 13

This uncertified transcript is not the official, certified version of the proceedings.
This uncertified transcript DOES CONTAIN ERRORS which WILL change the transcript's accuracy/meaning.
This uncertified transcript may not be filed with the court or cited from.

they've been in contact with the probate judge and with the
circuit clerk.
And, counselor, they are currently working on making that
happen in Madison County.
Q.

(BY MR. DAVIS:) Now, if a voter gets in touch with the

absentee election manager and asks the AEM to meet him or her
in the parking lot, for example, says, I'm going to have trouble
getting up to your office, completed myself absentee ballot
application, could you come down so I could hand it to you from
my car, is it your understanding that that would be permissible?
A.

Absolutely.
MS. MERLE: Objection.
THE WITNESS: And not only that -THE COURT: Secretary, hold on for a minute, please. What's

the objection, ma'am?
MS. MERLE: Speculation and also personal knowledge.
THE COURT: Okay. With the caveat that the Secretary will
explain why he knows that for a fact, I will allow the answer.
THE WITNESS: Yes, sir. Thank you, Judge. The absentee
election manager can receive the absentee ballot, or an assistant
absentee election manager, anyone that is legally charged with
proper custody of the ballot could receive that from the voter
regardless of where they were. If they were at a grocery store,
the nursing home, the parking lot as you asked, any location
where the chain of custody is not broken from the voter to the
PAGE 50

OF UNCERTIFIED TRANSCRIPT

Supp. App. 14

This uncertified transcript is not the official, certified version of the proceedings.
This uncertified transcript DOES CONTAIN ERRORS which WILL change the transcript's accuracy/meaning.
This uncertified transcript may not be filed with the court or cited from.

Now, you asked me earlier, if I'm remembering correctly,
counselor, whether or not someone could be assisted in voting.
And they can. That is permissible by law. And the assistance
that's necessary will be provided at whatever level as needed. I
also think it's important to note that in an ADA compliant
environment, which all of our polling sites are, that our intent
and desire is for the individual, the voter, to be able to cast their
ballot independently.
Q.

And if the voter has a disability that does not allow for them

to independently feed the tabulation machine, that would not
break the chain of custody if they got assistance in feeding the
tabulation machine, correct?
A.

Not if it were done in accordance with prescribed procedure

as far as assistance is concerned. I can't really imagine a
situation like you're talking about but -Q.

You can't imagine a person with a disability not being able

to feed a tabulation machine?
A.

No, I -- counselor, that's you saying that. What I'm saying to

you is I can't imagine a situation where the voter would not be
able to do what they wanted to do as far as completing their
ballot and putting the ballot in the tabulator without being right
there with the person who's assisting them. But I also think it's
important to know that any instance that might be one that the
individual with a disability would feel as though their situation
was compromised, that individual can vote through the absentee
PAGE 69

OF UNCERTIFIED TRANSCRIPT

Supp. App. 15

TRIAL TRANSCRIPT EXCERPTS
September 15, 2020

This uncertified transcript is not the official, certified version of the proceedings.
This uncertified transcript DOES CONTAIN ERRORS which WILL change the transcript's accuracy/meaning.
This uncertified transcript may not be filed with the court or cited from.

doing that in their case when they get it. But all right.
I think that I have resolved all of the motions in the sense
that I have agreed to carry them all to review specific testimony
related to these motions. And then obviously, the Defendants
can renew the motions at the end of their cases as well. So I am
ready to go forward with the evidentiary phase of the Defendants'
case. Let's break until 11 a.m. and then we will begin.
MR. ENGELHARDT: Your Honor. I'm sorry to interrupt you.
I just want to make sure before we left, if it's all right, I wanted to
orally join the State's motion in regard to the poll tax too.
THE COURT: Duly noted.
MR. WEBB: And, Your Honor, our clients, Lee, Lowndes, and
Wilcox, wanted to join the arguments made by the Mobile County
Defendants.
THE COURT: Thank you all. We are in recess until 11 a.m.
Who will be the first witness?
MS. HOLIFIELD: I believe that will be Judge Davis, Your
Honor.
THE COURT: Thank you. Judge Davis, are you on, sir? We
will start at 11:00.
JUDGE DAVIS: Good morning. Yes, I'm here. And I'm ready,
willing, and able.
THE COURT: Thank you.
(Recess.)
THE COURT: Hello again, everyone. We may begin.
PAGE 34

OF UNCERTIFIED TRANSCRIPT

Supp. App. 16

This uncertified transcript is not the official, certified version of the proceedings.
This uncertified transcript DOES CONTAIN ERRORS which WILL change the transcript's accuracy/meaning.
This uncertified transcript may not be filed with the court or cited from.

Mr. Speegle, Mr. Hale, who is doing the direct?
MR. SPEEGLE: It's me, Judge.
THE COURT: You may. Judge Davis, I know you are used to
swearing people in. Can I get you to raise your right hand please
so we can swear you in.
(Witness sworn.)
THE COURTROOM DEPUTY: Please state and spell your first
and last name for the record.
THE WITNESS: My first name is Mallory. My last name is
Davis.
THE COURTROOM DEPUTY: Could you spell it for me,
Mr. Davis.
THE WITNESS: Mallory is M-A-L-L-O-R-Y. Davis is D-A-V-I-S.
THE COURTROOM DEPUTY: What city and state do you
reside in, Mr. Davis?
THE WITNESS: I reside in Mobile, Alabama.
THE COURT: Thank you. Mr. Speegle, you may begin, sir.
MR. SPEEGLE: Thank you, Your Honor. Can you hear me
fine?
THE COURT: Your microphone needs to be unmuted.
MR. SPEEGLE: Well, when I do that, we're going to hear
feedback. I'm on the judge's microphone.
THE COURT: You're coming in faintly. Let me see. On my
end.
MR. SPEEGLE: I'll try and be -- but I think we're going to get
PAGE 35

OF UNCERTIFIED TRANSCRIPT

Supp. App. 17

This uncertified transcript is not the official, certified version of the proceedings.
This uncertified transcript DOES CONTAIN ERRORS which WILL change the transcript's accuracy/meaning.
This uncertified transcript may not be filed with the court or cited from.

Q.

Okay. Great.
MS. ZARAGOZA: And actually, Eric, if you could take us to

the next page. My apologies. Okay.
Q.

So do you see the bottom paragraph there, Judge Davis?
MS. ZARAGOZA: Oh, you can zoom out, Eric, in light of

Judge Davis's screen, please. Thank you. Okay.
Q.

And so you determined that 46 precincts could not

accommodate the same number of election officials who had
worked in the March primary locations; is that correct?
A.

Yes.

Q.

Okay. And so for those locations, you would not have been

able to accommodate any voters; is that correct?
A.

Yes.

Q.

Okay.

A.

Or very few -- none or very few.

Q.

And for many locations, you determined that they could

only accommodate a handful of voters inside at a time in
compliance with the CDC's social distancing guidelines and so
that would be maintained?
A.

Correct.

Q.

Okay. Now, you testified that you were able to change some

of those poll locations that could not comply with the CDC
guidelines, right?
A.

Yes. The county commission did. Not me. The county

commission did it in consultation with me would perhaps be the
PAGE 105 OF UNCERTIFIED TRANSCRIPT

Supp. App. 18

This uncertified transcript is not the official, certified version of the proceedings.
This uncertified transcript DOES CONTAIN ERRORS which WILL change the transcript's accuracy/meaning.
This uncertified transcript may not be filed with the court or cited from.

best way to be accurate.
Q.

Okay. Thank you for clarifying. But for several polls, there

were no other known facilitates in those precincts that could be
an alternative location, correct?
A.

Correct. Four.

Q.

Okay. So you notified the Attorney General's office about

these concerns prior to sending the letter on the screen, correct?
A.

I notified the Secretary of State's office and the Governor's

office. I believe the Attorney General's office was copied with the
letters. I also submitted an Attorney General's opinion request to
the Alabama Attorney General regarding some of these matters.
Q.

Okay.
MS. ZARAGOZA: Eric, could you please bring up PX 407.

Okay.
Q.

And do you recognize this document, Judge Davis?

A.

Yes.

Q.

Okay. What is this document?

A.

This is my response to Mr. Jim Davis, who is an Assistant

Attorney General in the AG's office regarding the proposals that I
submitted to Governor Ivey for her consideration in terms of a
possible modification of her emergency decree. The two things
that I had recommended to Governor Ivey that she consider were,
one, authorizing counties -- all Alabama counties to be able to
utilize what is referred to as -- commonly referred to as the
voting center concept for polls, and, two, to authorize us to use
PAGE 106 OF UNCERTIFIED TRANSCRIPT

Supp. App. 19

This uncertified transcript is not the official, certified version of the proceedings.
This uncertified transcript DOES CONTAIN ERRORS which WILL change the transcript's accuracy/meaning.
This uncertified transcript may not be filed with the court or cited from.

fewer poll workers in the runoff election than we had utilized in
the primary election. Mr. Davis had sent an email in response to
that, and that was my response back to him.
Q.

Okay. And you informed the Attorney General's office

including Jim Davis that you were concerned you couldn't
conduct the runoff elections at most of your current precinct
polls?
A.

Yes.

Q.

Okay. And so you stated that you recommended voting

centers; is that correct?
A.

That was a concept -- yes. What I'm referring to is that the

code of Alabama, the election code enables counties to have what
are called voting centers instead of a poll in each precinct. What
a voting center is, is where you have voters from more than one
precinct voting at the same place. And the way that we thought
this would work in some locations in Mobile County is that we
could -- while one precinct may not have -- one precinct may have
CDC issues -- and typically, these were small precincts, very
small geographic areas with a few number of voters. If we could
utilize the voting center concept and have them vote at an
adjacent poll -- the poll of an adjacent precinct that was a much
larger facility, then we could comply with the CDC guidelines
better and easier that way.
And so I was -- to be able to utilize the voting center concept
of elections provided by the Alabama election code, you have to
PAGE 107 OF UNCERTIFIED TRANSCRIPT

Supp. App. 20

This uncertified transcript is not the official, certified version of the proceedings.
This uncertified transcript DOES CONTAIN ERRORS which WILL change the transcript's accuracy/meaning.
This uncertified transcript may not be filed with the court or cited from.

have -- the county has to have -- the legislature has to have
adopted local legislation that enables the counties to utilize the
voting center concept. And in Mobile County, we do not have
that enabling -- we have not had that enabling legislation. So we
don't have that ability in Mobile County to do that. Now, some
other counties do have that ability. But we don't in Mobile
County.
Q.

And what counties do have that?

A.

Oh, I can't tell you the specific counties, ma'am. I'm sorry.

But I -- everything I can tell you would be hearsay in terms of
numbers.
Q.

That's okay. Fair enough. And in this letter, you conveyed

in light of, you know, what you've testified to just now that these
matters -- so, for example, with voting centers -- were beyond
your control?
A.

That's correct. Because I --

Q.

Okay. And if you may answer in yes-or-no questions. And

apologies. I know we are running short on time. Thank you.
MR. SPEEGLE: Your Honor, I would object to counsel
instructing this witness -THE COURT: I don't think in this instance she is. I think
Judge Davis -- at least as I read his response, he was just going to
explain again that Mobile cannot do it on its own. He needed the
legislature to ask -- I mean to act. I think that's where he was
headed.
PAGE 108 OF UNCERTIFIED TRANSCRIPT

Supp. App. 21

This uncertified transcript is not the official, certified version of the proceedings.
This uncertified transcript DOES CONTAIN ERRORS which WILL change the transcript's accuracy/meaning.
This uncertified transcript may not be filed with the court or cited from.

THE WITNESS: Your Honor, there was something else
besides that that I was going to note.
THE COURT: Well, then you may. You may answer the
question then.
THE WITNESS: The county commission makes those
decisions as to polls and voting centers, not the probate judge as
the chief election officer.
Q.

(BY MS. ZARAGOZA:) Okay. Thank you. And so you notified

in this letter as well that you would be sending formal letters to
Secretary Merrill and others, correct?
A.

Correct, if there was no action.

Q.

Okay. And so in fact, you did send a letter to Secretary

Merrill which was PX 389 which has been entered into evidence,
correct?
A.

Correct.

Q.

Okay. So no action was taken on your recommendation; is

that correct?
A.

No, that's incorrect.

Q.

Okay. So you just testified that you would send the letter if

no action was taken, and you sent the letter; is that correct?
A.

Oh, I sent the letters. But then there was action taken after I

sent the letters, within a week.
Q.

Okay. Thank you. So you've testified that you were

ultimately unable to change several of the polling sites that were
not complying with CDC guidelines; is that correct?
PAGE 109 OF UNCERTIFIED TRANSCRIPT

Supp. App. 22

This uncertified transcript is not the official, certified version of the proceedings.
This uncertified transcript DOES CONTAIN ERRORS which WILL change the transcript's accuracy/meaning.
This uncertified transcript may not be filed with the court or cited from.

A.

Yes.

Q.

Okay. And you testified that you had four polling locations

at which you rented and erected air-conditioned tents, correct?
A.

The county commission made those arrangements, yes.

Q.

Okay. So you worked with the county commission to

provide those tents, correct?
A.

Yes, ma'am.

Q.

Okay. And some of the election process occurred in those

outdoor tents, correct?
A.

Correct.

Q.

And you testified earlier about the three steps in the voting

process. And that first step of the voting process is the
registration check-in process where the voter signs in, and the
poll worker checks ID, correct?
A.

Correct.

Q.

Okay. And that first step of the voting process took place

within some of the tents, correct?
A.

Correct.

Q.

And you testified that prior to procuring the e-poll books,

there's a second step of the voting process where the voter signs
the poll list; is that correct?
A.

Well, the poll list, the clerk list is completed, and then

they're handed their ballot. That's all done at the second stage.
Q.

Okay. So a voter is handed their ballot at the second step.

And you are not sure, but the second step of the voting process
PAGE 110 OF UNCERTIFIED TRANSCRIPT

Supp. App. 23

This uncertified transcript is not the official, certified version of the proceedings.
This uncertified transcript DOES CONTAIN ERRORS which WILL change the transcript's accuracy/meaning.
This uncertified transcript may not be filed with the court or cited from.

may have happened inside some of the tents, correct?
A.

It's my appreciation that all of the handling of the ballots

occurred inside facilities, not in a tent.
Q.

Okay.
MS. ZARAGOZA: Eric, could you please pull up Judge Davis's

deposition, page -- excuse me. You can just pull up the
deposition. Okay.
Q.

And, Judge Davis, do you see is that it says "remote

deposition of Judge Don Davis on the front page"?
A.

Yes.

Q.

And do you see that it has a date, the 19th day of August at

the end of that first paragraph there?
A.

Yes.

Q.

Okay.
MS. ZARAGOZA: Eric, could you please take us to page 65.

Thank you.
Q.

So -- here we go. Starting at line 11. Can you read that,

Judge Davis?
A.

Well, line 11, the question is "so what took place outside and

what took place inside?"
Q.

Okay. And could you read your answer, please?

A.

"Well, I believe the registration check-in process would have

taken place inside within the tent the first step of the procedure.
There could be a poll where the second step took place under the
tent, but I don't believe so. The second step at our polls, the
PAGE 111 OF UNCERTIFIED TRANSCRIPT

Supp. App. 24

This uncertified transcript is not the official, certified version of the proceedings.
This uncertified transcript DOES CONTAIN ERRORS which WILL change the transcript's accuracy/meaning.
This uncertified transcript may not be filed with the court or cited from.

second station at our polls is where the voter signs the poll list.
The clerk prints the voter's name on the clerk list, and a third
clerk hands the voter their ballot."
Q.

Okay. And then it continues.
MS. ZARAGOZA: So, Eric, could you go to the next page.

Okay.
Q.

So could you read your answer? It's a continuation of the

question from 1 through 12, please.
A.

I'm sorry. What do you want me to read?

Q.

Apologies.
MS. ZARAGOZA: Eric, could you just put page 66 on the

screen. Thank you. Just don't want any of the text to get cut off.
Q.

Your answer continuing -- the question whether the second

step might have happened in the tent. You can read beginning at
line 1, please.
A.

Okay. Line 1. Answer. "We working with the county

commission as to the tent matter aspect of our operations -- but
we also vest -- and we reviewed these matters with the inspectors
of the polls where this is going to occur. But we also tell the
inspectors that, we give them some leeway in terms of how they
operate their poll on Election Day. If they felt on Election Day it
was better to have the second station of the poll within the tent
area and if there was enough space for it utilizing the CDC
guidelines, it could have occurred. I don't know that it did. I'm
just saying it could have. I'm not aware of it happening, but it
PAGE 112 OF UNCERTIFIED TRANSCRIPT

Supp. App. 25

This uncertified transcript is not the official, certified version of the proceedings.
This uncertified transcript DOES CONTAIN ERRORS which WILL change the transcript's accuracy/meaning.
This uncertified transcript may not be filed with the court or cited from.

could have."
Q.

Thank you, Judge Davis.
MS. ZARAGOZA: And, Eric, you can take that down.

Q.

So just so I understand your testimony, your deposition

testimony correctly, poll inspectors have some leeway in terms of
how they operate their poll on Election Day, correct?
A.

A little bit.

Q.

Okay. And you testified that they could have had the

second stage occur in the tent and that the second stage is where
the voter receives a ballot; is that correct?
A.

Yes.

Q.

Okay. And the Alabama code doesn't say whether voters can

undertake steps one or two of the voting process in a tent; is that
correct?
A.

The tent was located at the designated -- officially

designated site for the poll as designated by the county
commission.
Q.

But Alabama code is silent as to whether step one or step

two of the voting process can take place in a tent; is that correct?
A.

There is no specific reference that I'm aware of to tents in

the Alabama election code.
Q.

Okay. Now, you testified that you -- in discussing curbside

voting, that you had test uniformity from one polling place to
another. But you only provided tents at four locations, correct?
A.

The county commission did, yes, ma'am.

PAGE 113 OF UNCERTIFIED TRANSCRIPT

Supp. App. 26

This uncertified transcript is not the official, certified version of the proceedings.
This uncertified transcript DOES CONTAIN ERRORS which WILL change the transcript's accuracy/meaning.
This uncertified transcript may not be filed with the court or cited from.

witnesses we had scheduled for today would be pushed to
tomorrow. And then we'll have some of the Mobile County
officials. The others we hope will testify on Thursday. I think
we're still okay.
THE COURT: Okay. Thank you, Mr. Davis.
Mr. Helms, good afternoon.
THE WITNESS: Good afternoon, Your Honor.
THE COURT: Mr. Davis, are you doing Mr. Helms's direct?
MR. DAVIS: I am, and I'm ready, Your Honor.
THE COURT: Okay. Mr. Helms, can I get you to raise your
right hand, please, so you can be sworn in.
(Witness sworn.)
THE COURTROOM DEPUTY: Please state and spell your first
and last name for the record.
THE WITNESS: Clay Helms, C-L-A-Y, H-E-L-M-S.
THE COURTROOM DEPUTY: What city and state do you
reside in, Mr. Helms?
THE WITNESS: Sorry. I didn't get that.
THE COURTROOM DEPUTY: What city and state do you
reside in?
THE WITNESS: Montgomery, Alabama.
THE COURTROOM DEPUTY: Thank you.
THE COURT: Mr. Davis.
MR. DAVIS: Thank you.
Q.

Where do you work, Mr. Helms?

PAGE 133 OF UNCERTIFIED TRANSCRIPT

Supp. App. 27

This uncertified transcript is not the official, certified version of the proceedings.
This uncertified transcript DOES CONTAIN ERRORS which WILL change the transcript's accuracy/meaning.
This uncertified transcript may not be filed with the court or cited from.

A.

Correct, yes, ma'am.

Q.

Okay. And their responsibilities include working with

county commissions to designate polling places; is that correct?
A.

That's correct.

Q.

And as long as the way in which probate judges manage

in-person voting locations is lawful, you defer to local election
officials on how to handle voting logistics; is that correct?
A.

As long as it's lawful, yes, ma'am.

Q.

But if a probate judge were conducting an election in a

manner that the Secretary viewed as unlawful, your office would
intervene; is that correct?
A.

Yes, ma'am.

Q.

And this is the same for if an absentee election manager or

circuit clerk were conducting the election in a manner that the
Secretary viewed as unlawful, your office would intervene; is that
correct?
A.

Yes, ma'am.

Q.

And with respect to assessing what is and is not lawful as

far as election management and election procedures, would you
agree that county election officials defer to the Secretary of
State's office regarding what is and is not lawful?
MR. DAVIS: Object to the form. I'm not sure that's been
established in testimony. Mr. Helms only spoke of guidance.
THE COURT: Overruled. Mr. Helms, you can answer if you
understand the question, sir.
PAGE 167 OF UNCERTIFIED TRANSCRIPT

Supp. App. 28

This uncertified transcript is not the official, certified version of the proceedings.
This uncertified transcript DOES CONTAIN ERRORS which WILL change the transcript's accuracy/meaning.
This uncertified transcript may not be filed with the court or cited from.

THE WITNESS: Can you ask it again, Ms. Reed, just so I can -Q.

(BY MS. REED:) Absolutely. In general, would you agree that

county election officials defer to your office regarding what is
and is not lawful administration of elections?
A.

County probate judge or county election officials rely on us

for guidance on carrying out their duties. Now, in terms of the
law, I wouldn't say we so much as interpret the law for them. The
law is the law, and they carry out the law. If they have questions
on administrative guidance, that's what we're there for. Kind of
yes and no, I guess. I'm sorry. That's not a greater answer.
Q.

No, that works. Thank you. Now, regarding absentee voting

requirements specifically, you testified about the Secretary of
State's emergency rule allowing voters who fear contracting
COVID-19 to vote absentee. Do you recall that?
A.

Yes, ma'am.

Q.

And that rule you testified currently runs through the end of

the year, you believe?
A.

We have multiple emergency rules pertaining to the

individual elections themselves. So the last one I remember if I
remember correctly goes to at least November 17th, and I
thought there was one that went to as far as December 15th. So,
yes, ma'am.
Q.

Okay. Okay. And you are aware that there are elections

after the November 3rd general election, correct? You just
testified there's that one December 15th?
PAGE 168 OF UNCERTIFIED TRANSCRIPT

Supp. App. 29

This uncertified transcript is not the official, certified version of the proceedings.
This uncertified transcript DOES CONTAIN ERRORS which WILL change the transcript's accuracy/meaning.
This uncertified transcript may not be filed with the court or cited from.

Q.

Uh-huh. And do you understand -- is it your understanding

that the majority of counties will have electronic poll books
ahead of the or for the November 3rd general election?
A.

I think at this point, we are in the high 50s. A lot of those

have been very recent. So again, you're taking a county that is
just learning a brand new program countywide with electronic
poll books. And in this scenario, you're also asking them to move
it outside and offer something that's never been offered from a
countywide standpoint or statewide standpoint in the history of
the state. So just because they have them doesn't mean you want
to tack on a brand new program to completely destroy their
ability to carry out an election.
Also depending on the brand of electronic pollbook, they are
connected to a stand which cannot be removed. So you are toting
around something that's twice as large as a briefcase. You're
going to tote that in and out of a polling place? So I just wouldn't
get too hung up on 50-plus counties have poll books, therefore,
yay, it's all going to work out. There's a lot more specificity to it.
Q.

Well, why don't we do a couple things. One, I want to walk

through the prior instances of curbside voting which we have
discussed previously. So you've previously identified instances
in Perry, Hale, and Chilton County; is that right?
A.

You know, I tried to remember that. I don't remember of an

instance in Chilton County. I'm not aware of anything on that.
Not saying it didn't happen. But I'm more aware of Perry and
PAGE 186 OF UNCERTIFIED TRANSCRIPT

Supp. App. 30

